U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Outdoor Amusement Business Association, Inc., et al. v. Department of
Homeland Security, et al., S.Ct. No. 21-80
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 16,
2021, and placed on the docket on July 21, 2021. The government’s response is due on August
20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0080
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC., ET AL.
DEPARTMENT OF HOMELAND SECURITY, ET AL.

R. WAYNE PIERCE
THE PIERCE LAW FIRM, LLC
133 DEFENSE HWY.
SUITE 201
ANNAPOLIS, MD 21401
410-573-9955
WPIERCE@ADVENTURELAW.COM
LEON R. SEQUEIRA
616 SOUTH ADAMS STREET
ARLINGTON, VA 22204
202-255-9023
LSEQUEIRA@LRS-LAW.COM

